CERTIFICATE OF SERVICE
The undersigned hereby certifies that three
copies of following documents were send to counsels
for the Appellees/Defendants and via U.S. Priority
Mail on 8/15 / 2019.

PETITION FOR A WRIT OF CERTIORARI
City and County of San Francisco,
Respondents-Defendants
Boris Reznikov, Deputy City Attorney
San Francisco City Attorney’s Office
Fox Plaza 5th Floor 1390 Market Street,
San Francisco, CA 94102-5408

/s/ Alfred Lam
ALFRED LAM
P.O. Box 16376 San Francisco, CA 94116

42

